<html>
<title> - NOMINATION OF VICE ADMIRAL THOMAS H. COLLINS TO BE COMMANDANT OF THE UNITED STATES COAST GUARD</title>
<body><pre>[Senate Hearing 107-958]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-958



                       NOMINATION OF VICE ADMIRAL


                 THOMAS H. COLLINS TO BE COMMANDANT OF


                     THE UNITED STATES COAST GUARD

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, MARCH 19, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


87-603              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on March 19, 2002...................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Inouye......................................     2
Statement of Senator Stevens.....................................     2
Statement of Senator Snowe.......................................     3
Statement of Senator Cleland.....................................     4

                                Witness

Collins, Vice Admiral Thomas H., Commandant [G-CV], U.S. Coast 
  Guard, nominee to be Commandant of the U.S. Coast Guard........     5
    Prepared statement...........................................     7
    Biographical information.....................................     9

              Additional Material Submitted for the Record

McCain, Hon. John, prepared statement............................    21

 
                       NOMINATION OF VICE ADMIRAL
                   THOMAS H. COLLINS TO BE COMMANDANT
                    OF THE UNITED STATES COAST GUARD

                              ----------                              


                        TUESDAY, MARCH 19, 2002

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room 
SR-253, Russell Senate Office Building, Hon. John F. Kerry, 
presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. This hearing will come to order.
    Admiral, we welcome you here this afternoon. I am blessed 
to be surrounded by more wisdom and ability in the U.S. Senate 
than at any time previously, and I thank my colleagues for 
being here.
    Admiral, I suppose we could say that you are a native of 
Stoton, Mass., and your wife, I have just learned, is a 
native--or at least was born in Brighton--so the hearing could 
end right there. That is enough.
    But it is a great pleasure to welcome you here. You are to 
be congratulated, and all of your family, on an extraordinary 
career and to reach the post potentially of Commandant--I say 
potentially, because the formality of this hearing is really 
all that stands between you, and your confimation--is really 
terrific.
    The Coast Guard obviously is largely unknown, a lot of 
people in America are not aware of its size, 35,000 people in 
uniform. It is about the size of the New York City Police 
Department. I think you save on average about 14 lives a day 
and interdict several hundred tons of cocaine each day on 
average and provide just an enormous service.
    That service obviously has grown markedly since 9/11. A lot 
of people again are not aware of it, but the Coast Guard is 
escorting major vessels into our ports in the country. We have 
an enormous number of ports in America, of rivers, I think 
about a thousand harbor channels and 25,000 miles of inland, 
intracoastal and coastal waterways, serving over 300 ports 
comprised of more than 3,700 terminals. Ninety-five percent of 
all of the commercial traffic of the United States was carried 
through the waterways. Unfortunately, as we learned only too 
well recently, only about two percent of that gets inspected.
    So the mission for you and the members of the Coast Guard 
is just getting more and more complicated. We know you are 
beginning two major acquisition programs, the Integrated 
Deepwater System that Senators Snowe and Stevens and Inouye and 
I have fought for for a long time, the Response Systems 
Modernization Project, and the national distress project, which 
will greatly improve the service to the country.
    I think Senator Snowe and I are particularly concerned 
about the gaps in that service, which happen to fall on New 
Jersey, New Hampshire, Maryland, and South Carolina, so Senator 
Hollings obviously also is concerned about it, and it is 
something we hope will be filled very quickly.
    But we do not need to belabor these introductions at all. 
It is my honor to have Senator Stevens, who I know wants to 
introduce you. But we welcome you and Nancy, and again, we 
really are grateful for your years of service and look forward 
to your stewardship in this most important position.
    Senator Stevens.
    Senator Stevens. My friend was here first.
    Senator Kerry. Well, I try to go back and forth, but I am 
happy to break the protocol, particularly since you suggested 
it.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I thank you very much, Senator Stevens and 
Mr. Chairman. I simply want to associate myself with your 
remarks, Mr. Chairman, and to simply add by saying that my 
constituents, the people of Hawaii, respect and love this man. 
So if you want my vote at this moment, you have got it.
    I thank you very much. Will you please excuse me.
    Admiral Collins. Thank you, sir.
    Senator Kerry. Thanks so much, Senator Inouye. Thank you 
very much.
    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much, Mr. Chairman. It is a 
pleasure to be here to formally introduce Vice Admiral Thomas 
Collins, the President's nominee to become the twenty-second 
Commandant of the United States Coast Guard.
    I think Vice Admiral Collins is an excellent choice to lead 
this organization, and it has an increased level of 
responsibility now because the men and women of the Coast Guard 
have taken on additional duties to protect and secure our 
homeland.
    Vice Admiral Collins has been on the front line serving on 
our Nation's coastline. He served tours first as a lieutenant 
and a deck watch officer of the Coast Guard Cutter Vigilant and 
as Commander of the Coast Guard Cutter Cape Morgan. He then 
moved into the group operations in St. Petersburg, Florida, and 
then as Captain of the Port for Long Island Sound and New 
Haven, Connecticut. His dual background in marine safety and 
operational issues will be relied on as the Coast Guard's role 
in homeland security is developed and refined, as I know we 
must do in coming years.
    Vice Admiral Collins served as commander of the Pacific 
Area and the Eleventh Coast Guard District, very close to home, 
Mr. Chairman. Alaska is the largest district in the Pacific 
area and the challenges of our area, the North Pacific, are 
well known to the Admiral. Foreign fishing vessels encroach on 
our maritime boundary line continually.
    Many of Alaska's fishermen in remote communities depend on 
the Coast Guard's search and rescue program in the harshest of 
conditions.
    The Coast Guard in my State of Alaska, more than half of 
the coastline of the United States, have a special and 
important relationship that I know the Vice Admiral appreciates 
and will continue to foster under his command leadership. I do 
not know if many of you realize how many babies the Coast Guard 
actually delivers from time to time in those helicopters, and 
it really does have a special relationship to us.
    I am very pleased that the Admiral has asked me to comment 
on his background. The selection process that has brought Vice 
Admiral Collins to this Committee hearing is a very competitive 
process and you deserve a great deal of credit for having been 
selected. Your 34 years of dedicated service to this country 
provides you with a diversity of experience to lead the men and 
women of our country who will wear the uniform of your service, 
and I think that you will lead us into the future. It is an 
uncertain future right now, but it is very certain for the 
Coast Guard with you as the Commandant.
    Mr. Chairman, I welcome this opportunity.
    Senator Kerry. Thank you very much, Senator Stevens.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman. Very briefly, I 
too, want to welcome Vice Admiral Collins to this Committee. 
You are certainly the right person for this multifaceted, 
multimission agency. You possess, based on your experience, I 
think the rare combination of Coast Guard experience, skilled 
leadership, and experience in working with other agencies. That 
combination of credentials I think is essential and pivotal in 
guiding the Coast Guard toward the future.
    As we know, in the wake of September 11th, the challenges 
that confront the Coast Guard in fulfilling its Homeland 
Security responsibilities are tremendous. The Coast Guard has 
to fulfil these new responsibilities and obligations along with 
its many other traditional obligations and missions that the 
American people have come to expect from the Coast Guard.
    I know that you will be able to guide the Coast Guard 
through these perilous times. Additonally, I know you will be 
able to lead the Coast Guard towards modernization, especially 
the Deepwater Project that is going to be so essential to the 
Coast Guard's future.
    Admiral Collins, I want to welcome you. I think you provide 
remarkable experience at a time in which the Coast Guard is 
certainly going to require it. I know you will continue what 
Admiral Loy has done over the last 4 years, and I know that the 
Coast Guard is going to be in good stead for the future.
    [The prepared statement of Senator Olympia Snowe follows:]

             Prepared Statement of Senator Olympia J. Snowe

    I would like to thank the Chair for holding this hearing today. As 
you noted, the current Commandant will complete his tour of duty on May 
30th, and it is critical the Senate consider his replacement before 
that time.
    First, let me express my appreciation for the efforts of Admiral 
Loy, the outgoing Commandant, over the past 4 years. He has carried out 
his duties with distinction and remarkable accomplishment, particularly 
during the tumultuous times in the wake of the horrific attacks of 
September 11th.
    Since then, Admiral Loy has led the Coast Guard through its largest 
port security operation since World War II, and he has worked 
tirelessly to ensure the Coast Guard is ready to respond to any threat. 
With his sure and steady hand at the helm, he led the Coast Guard 
through numerous readiness challenges and he has been at the forefront 
in advocating the Deepwater project which is now coming to the 
production phase. As the Coast Guard has increasingly been called upon 
to do more with less, Admiral Loy has navigated these difficult waters 
effectively and with impressive leadership, and I want to publicly 
thank him for his tireless efforts on behalf of the Coast Guard and the 
Nation.
    It is vital the new Commandant of the Coast Guard maintains this 
course and I have every confidence that Admiral Collins is the right 
person for the job. The Coast Guard is an integral component of the 
federal government. Through its search and rescue operations, the Coast 
Guard aids people in distress and prevents injuries, loss of life, and 
loss of property on our waters.
    It enforces all federal laws and treaties related to the high seas 
and U.S. waters. It is the lead federal agency for preventing and 
responding to major pollution incidents in the coastal zone. It makes 
our ports and shipping lanes safe for efficient maritime transportation 
and commerce. And as one of the armed services, it plays a critical 
role in our Nations's defense strategy.
    As the Chair noted, the nominee for Commandant before us today has 
compiled a long and distinguished career in the service of our Nation. 
Admiral Collins currently serves as the Coast Guard's Vice Commandant 
where he has served by Admiral Loy's side for the past 2 years. In this 
position he has been instrumental in implementing readiness and 
retention plans to strengthen the Coast Guard.
    Before assuming this position, he served as the Coast Guard's 
Commander of the Pacific Area and the Commander of the U.S. Maritime 
Defense Zone in the Pacific. Admiral Collins has served in a variety of 
assignments throughout his exemplary career which was highlighted by 
his command of a cutter and a Group, assignment as a Captain of the 
Port, and later serving as a District Commander.
    Mr. Chairman, Admiral Collins clearly has very impressive 
qualifications for this high position for which he has been nominated. 
I look forward to his testimony and to working with him, and I again 
thank you for scheduling this important hearing.

    Senator Kerry. Senator Cleland has joined us. I am 
delighted to welcome my friend and our colleague.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman.
    I would like to welcome Vice Admiral Collins before the 
Committee. You certainly have a distinguished record of over 34 
years of service to our country. I am pleased to say that I 
look forward to supporting your nomination.
    There are a few issues that I would like to call to your 
attention today. First is the critical issue of port security. 
In Georgia we happen to have Savannah and Brunswick. I was just 
down in Savannah over the weekend. Both the Senate and house 
have passed S. 1214, the Maritime and Port Security Act. It 
will provide vital assistance to our Nation's 361 ports in 
upgrading their existing security system, of which the Coast 
Guard is an integral part.
    I might say that the Coast Guard took an integral part, I 
am sure in an official way, in monitoring the 500,000 people at 
the Saint Patrick's Day parade in Savannah, and your presence 
was most welcome.
    I know you understand this importance as a former captain 
of a port and you understand the Coast Guard's leadership role 
for all local, state, and federal officials involved in seaport 
security.
    Further, this legislation authorizes additional funding for 
the Coast Guard to carry out its port security 
responsibilities. I urge my colleagues in the House to work 
with the Senate in order to pass the conference report so that 
you have the resources to do your job.
    Second, the Coast Guard as the coordinator and leader in 
port security should work with all entities involved in the 
security process. I look to the people who work and experience 
life at the port every day for the most up-to-date information. 
They are the most informed. It goes without saying that a port 
is only as secure as its weakest link. I believe with better 
coordination and with the belief in and the feeling of open 
communication among all groups, public and private, involved in 
protecting the seaports, we eliminate those weak links.
    Last, the Coast Guard has duties other than port security, 
such as search and rescue, drug interdiction, and living marine 
resources enforcement. I urge you not to overlook these 
responsibilities as you work to fulfil the heightened 
importance of port security. These duties are also an important 
part of securing the homeland.
    I thank you so much for your service to our nation and may 
God watch over our men and women in uniform.
    Thank you, Mr. Chairman.
    Senator Kerry. Thank you very much, Senator Cleland.
    Admiral, welcome again and we look forward to your 
statement. As I say, I do not think we need to prolong this 
hearing, but we certainly do have some areas we would love to 
hear your thoughts about. Thank you.

         STATEMENT OF VICE ADMIRAL THOMAS H. COLLINS, 
           COMMANDANT, U.S. COAST GUARD HEADQUARTERS

    Admiral Collins. Thank you, Mr. Chairman. Thank you for 
your kind words and thank you for the kind words of the other 
distinguished Members of the Committee, particularly to Senator 
Stevens for his kind introduction and support, as he supported 
us throughout these years.
    I might note that the states of Massachusetts, Maine, 
Hawaii, Alaska, and Georgia, have just a rich history where 
Coast Guard has played a key part with the constituents in 
ensuring the safety in the coastal areas. Our 211-year history 
is replete with Coast Guard heros from Maine and Massachusetts, 
Alaska and Hawaii. So it is great to have the Senators from 
these states at this hearing this morning.
    If confirmed, of course, I am going to apply all my 
energies to ensure that I can live up to the expectations of 
the Committee.
    I am clearly honored by the confidence that President Bush 
and Secretary Mineta have placed in me in my nomination to be 
the twenty-second Commandant of the Coast Guard. I have a very 
deep respect for the organization that I have worked for for 34 
years and, more importantly, a very deep respect for our men 
and women that serve the American people so well day-in and 
day-out. I feel incredibly privileged to have the opportunity 
to lead them in jobs and tasks that truly make a difference for 
the public and the national interest.
    I also have the great fortune to follow a great leader in 
Jim Loy, some big shoes to fill. I think he has done an 
incredible job as Commandant the past 4 years. He has built a 
solid foundation for our service as we launch into the twenty-
first century. The fact that we can be so responsive and on 
point in the wake of 9/11 had a lot to do with the preparatory 
work that he did for our service over the last 3 or 4 years. I 
look forward to working with the President and Secretary Mineta 
and Congress to further strengthening this reputation of 
excellence that he has created.
    The Coast Guard has always been a very relevant player in 
the national security arena. Our flexibility and responsiveness 
as a military and multi-mission organization has allowed us to 
add value in every instance. It was so before 9/11. It is more 
so now in the wake of the terrorist acts. The events of last 
September have properly catapulted maritime security as a 
component of homeland security to the forefront, and it 
necessitates a strategic rebalancing of Coast Guard missions 
and associated resource allocation and utilization.
    Along with search and rescue, security within our ports and 
waterways and coastal zones must command top billing among our 
mission priorities. At the same time, we must balance our 
efforts so other missions can be performed at adequate levels, 
especially those that strengthen and push out our borders and 
preserve our scarce living marine resources.
    If confirmed, my goals would be to meet these challenges 
through a sharp focus in three central areas: readiness, 
stewardship, and people. Let me elaborate briefly on each one 
of these.
    Superior operational service is our core purpose, our most 
important product. Our nation has come to expect that from us. 
In the midst of our current crisis, we must expand our 
capabilities as the lead federal agency for maritime security. 
To deliver on these expectations, we must build ready forces 
composed of well-trained people equipped with modern, 
sustainable technology, all employing sound tactics. This is a 
first order priority of any military service leader. It will be 
mine.
    Assurance of our future readiness must be aggressively 
pursued by pushing ahead smartly with modernization efforts, 
such as Deepwater and the National Distress and Response System 
Projects.
    Building maritime domain awareness through collaborative 
partnerships with other governmental agencies and the private 
sector will also be key to achieving readiness success, as 
alluded to by the Senator from Georgia.
    My second area of emphasis is stewardship. We will work 
hard to further strengthen our reputation for excellence in 
managing our resources by instilling quality principles in all 
we do, by emphasizing performance-based planning and resource 
allocation, and by driving to a culture of innovation in the 
smart use of technology. We want to be accountable. We want to 
be accountable for delivering results.
    My most important emphasis reflects a commitment to our 
people. In fact, our people make the Coast Guard what it is. 
The ability to attract, develop, retain and deploy a quality 
workforce is the key to Coast Guard's ability to deliver 
operational excellence and be good stewards of the public 
trust. This will be my top priority, and perhaps our greatest 
challenge. It will mean restructuring decades-old human 
resource policies and processes, ensuring compensation parity 
with Department of Defense services, building an innovative 
training and professional development program, and appealing to 
a diverse pool of candidates.
    Achieving success in the areas of readiness, stewardship, 
and people will translate directly into good outcomes for the 
nation. However, success cannot be achieved without 
establishment of sound overarching governing policy direction 
and wise investments in our service. More than ever before, 
national interests call for a vibrant, ready Coast Guard. I 
will seek your support, with the guidance of Secretary Mineta, 
in this regard, so that we can live our motto, ``Semper 
Paratus.''
    In turn, I pledge my full energies and enthusiasm to our 
service, to its core values and characteristics, and its 
tradition of service to the public now and into the future. The 
interests and safety of our men and women will always be at the 
forefront. I am excited about the prospects.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today, and I will be happy to answer any questions 
that you or Committee Members may have.
    [The prepared statement and biographical information of 
Vice Admiral Collins follow:]

            Prepared Statement of Admiral Thomas H. Collins

    Good afternoon, Mr. Chairman, and distinguished Members of the 
Committee. I am honored to appear before you today. I look forward to 
listening to your views and responding to your questions on issues 
facing the Coast Guard.
    President Bush and Secretary Mineta have bestowed a great honor 
upon me, reflected in this nomination as the 22nd Commandant of the 
United States Coast Guard. I am humbled by the nomination and grateful 
for their confidence in me.
    I have the deepest respect for the organization in which I have 
spent my thirty-four years of service and for the professionalism and 
dedication of its men and women. My commitment is to lead and manage 
the Coast Guard for the next 4 years with the overall goals of 
expanding our service reputation of operational excellence and 
strengthening our role as an integrated and productive component of the 
Department of Transportation. I look forward to working with the 
President, Secretary Mineta, and the Congress to this end.
    The past 6 months have brought unprecedented challenges upon us as 
a nation. I am grateful for the dynamic leadership of the President and 
our Secretary and the unified strength of the Congress in responding to 
the real and present dangers of terrorism and in preparing us for 
additional threats, which may yet come. Americans of all walks of life 
have risen with courage and determination to meet these new challenges, 
just as we always have done throughout our illustrious history.
    As a maritime nation, the United States has always depended on a 
strong and capable Coast Guard for its security and safety. Through the 
years, our missions have grown steadily in response to the needs of 
this great and prosperous country. In fact, the Coast Guard's history 
reflects the story of a growing nation confronting one emergent 
maritime need after the other. During many such crises, America 
entrusted the mission to the Coast Guard. Each time, the Coast Guard 
accepted the challenge and folded it into its inventory of multi-
mission responsibilities.
    Today is no different. We must remain ready to provide maritime 
safety and security in a rapidly changing world. And the Coast Guard 
has been uniquely positioned to serve a wide range of maritime 
security, safety, environmental, mobility, and defense interests under 
the extraordinary leadership of Admiral Jim Loy. His focus on restoring 
readiness and shaping the future through wise operating expense and 
capital investments has been on target.
    We are poised to transform our Coast Guard capabilities, systems, 
and processes so we can meet the demands of the twenty-first century. 
We are confident in our military, multi-mission, maritime character; 
strengthened by our core values of Honor, Respect, and Devotion to 
Duty; and renewed in our sense of purpose and commitment to serve 
America.
    My leadership challenge will be to build upon this solid foundation 
and to provide the vision and direction that will be required to meet 
tomorrow's challenges, especially in the wake of the September 11th 
terrorist attacks. As we look forward, we must place our immediate 
focus on strengthening our capability to provide security to our 
homeland, yet do so with a careful and watchful eye on the adequate 
accomplishment of all of our other missions. Each of our missions is 
inherently connected to the others. The success of all depends on the 
excellence of each one.
    We must also build productive relationships with newly created 
security entities including the new Transportation Security 
Administration, the Office of Homeland Security, as well as evolving 
Department of Defense unified command organizations.
    If the Senate confirms me, my emphasis as Commandant will be 
focused sharply in three areas: (1) readiness, (2) stewardship, (3) and 
people. We must be Always Ready for the call, and will remain so by 
taking affirmative steps to sustain current and future readiness, by 
aggressively reinforcing our stewardship of the public trust, and by 
placing energetic emphasis on the development and well-being of Coast 
Guard people. Allow me to discuss briefly each of these three areas of 
emphasis.
    We must be ready in all of our mission areas, because each 
contributes to our Nation's safety and security. The Coast Guard is 
recognized throughout the world for its leadership and expertise in 
Search and Rescue. We must exercise the same level of leadership and 
expertise as the lead federal agency for maritime security. To do so, 
we must ensure ready forces composed of well-trained people, equipped 
with modern, sustainable technology, and employing sound tactics. Our 
readiness initiatives will include the:
    <bullet> Design and implementation of an integrated command and 
control, communication and intelligence network for information 
gathering, analysis, and sharing so as to provide Maritime Domain 
Awareness to our operational commanders and other national 
stakeholders. The goal is to optimize safety and security in our ports, 
waterways and the coastal zone;
    <bullet> Development and maintenance of national and international 
strategic partnerships to bring clarity to mission planning and 
execution; and
    <bullet> Assurance of our future readiness by modernization or 
replacement of our aging ships, aircraft and associated command and 
control and sensor systems through innovative initiatives. The 
Integrated Deepwater System Project, the National Distress Response 
System Modernization Project and other elements in our Search and 
Rescue Strategic Plan represent the lead items in achieving our future 
readiness.
    We must continue to strengthen our stewardship of the public trust 
by maintaining and improving upon our enviable reputation for 
excellence in managing our resources. We must unleash our collective 
ingenuity and resourcefulness through initiatives that include:
    <bullet> Instilling quality in all we do by encouraging performance 
based management;
    <bullet> Inspiring a culture of innovation and the creative use of 
technology; and
    <bullet> Exploiting the Deepwater acquisition for emerging 
opportunities to revolutionize our service to the American people.
    Most importantly, we must be loyal to our people and inspire their 
loyalty to the Coast Guard. The readiness of our ships, aircraft, and 
systems will come to nothing without Coast Guard men and women who are 
ready, willing, and able. We must transform our team through 
initiatives that:
    <bullet> Recruit, train, and retain diverse, dynamic, and capable 
people;
    <bullet> Educate and encourage professional growth for every 
element of the active duty, civilian, reserve, and auxiliary 
components; and
    <bullet> Develop and implement modern policies for personnel, 
operations, and support systems to attain greater stability and 
flexibility of assignment and advancement.
    More then ever before, America's national security interests 
mandate the need for our Nation's maritime guardian--the Coast Guard. 
Much has changed since last September, but much remains the same: 
America's vital maritime commerce must continue to flow, our fishing 
grounds must be protected, preventive inspections must be performed, 
our precious maritime environment must be preserved, our borders must 
be secure from illegal drugs and migrants, and the American people must 
be kept safe and secure. We must do all of this while preserving our 
multi-mission, military, and maritime character and our core values of 
honor, respect, and devotion to duty. I recognize the need and look 
forward to working as a member of the Department of Transportation team 
with the Administration and Congress in the years ahead so as to ensure 
a Semper Paratus Coast Guard, not just for the next 4 years, but also 
for the next generation.
    Thank you for the opportunity to appear before you today. I will be 
delighted to respond to any questions you might have.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Thomas H. Collins.
    2. Position to which nominated: Commandant, U.S. Coast Guard.
    3. Date of nomination: February 6, 2002.
    4. Address: (Information not released to the public).
    5. Date and place of birth: June 25, 1946; Quincy, MA.
    6. Marital status: Married: Constance Ann Collins (Monahan).
    7. Names and ages of children: Christine Ann Collins, 31; Kathryn 
Collins, 27.
    8. Education:


----------------------------------------------------------------------------------------------------------------
                      Institution                          Dates Attended    Degrees Received   Dates of Degrees
----------------------------------------------------------------------------------------------------------------
USCG Academy...........................................            1964-68                 BS         June 1968.
Wesleyan University....................................            1971-72               MALS          May 1972.
University of New Haven................................            1973-76                MBA          May 1976.
----------------------------------------------------------------------------------------------------------------

    9. Employment record:


----------------------------------------------------------------------------------------------------------------
               From                     To        Name of Employer           Address            Type of Work
----------------------------------------------------------------------------------------------------------------
1964..............................       1968  USCGC Academy........  New London, CT......  Undergraduate
                                                                                             Studies.
1968..............................       1969  USCGC Vigilant.......  New Bedford, MA.....  Deck Watch Officer.
1969..............................       1971  USCGC Cape Morgan....  Charleston, SC......  Commanding Officer.
1971..............................       1972  Wesleyan University..  Middletown, CT......  Graduate Studies.
1972..............................       1976  USCG Academy.........  New London, CT......  Faculty Member.
1976..............................       1980  USCG Headquarters....  Washington, DC......  Office of R&D
                                                                                             Programming/Budget.
1980..............................       1983  USCG Group St.         St. Petersburg, FL..  Deputy Grp
                                                Petersburg.                                  Commander.
1983..............................       1987  USCG Headquarters....  Washington, DC......  1Office of Chief of
                                                                                             Staff Programming
                                                                                             Staff.
1987..............................       1990  USCG Grp Long Island   New Haven, CT.......  Group Commander.
                                                Sound.
1990..............................       1992  USCG District 14.....  Honolulu, HI........  Division Chief/Staff
                                                                                             Officer.
1992..............................       1994  USCG Headquarters....  Washington, DC......  Office of Chief of
                                                                                             Staff Division
                                                                                             Chief/G-CPA.
6/94..............................      10/94  USCG Headquarters....  Washington, DC......  Deputy Chief of
                                                                                             Staff.
1994..............................       1996  USCG Headquarters....  Washington, DC......  Chief, Office of
                                                                                             Acquisition.
1996..............................       1998  USCG District 14.....  Honolulu, HI........  District Commander.
1998..............................       2000  USCG Pacific Area....  Alameda, CA.........  Area Commander.
2000..............................       2002  USCG Headquarters....  Washington, DC......  Vice Commandant.
----------------------------------------------------------------------------------------------------------------

    10. Government experience: None, other than those listed above.
    11. Business relationships: None.
    12. Memberships: U.S. Coast Guard Academy Alumni Association; 
Wesleyan Alumni Association.
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held or any public office for 
which you have been a candidate. None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: 2000, Distinguished Service Medal for 
Service, Pacific Area Commander; 1998, Legion of Merit for Service, 
Commander, 14th Coast Guard District; 1996, Legion of Merit for Service 
as Chief, Office of Acquisition; 1994, Legion of Merit for Service as 
Chief, Programs Division; 1992, Meritorious Service Medal for Service 
as Division Chief, 14th CG District; 1990, Meritorious Service Medal 
for Service as Group Commander, Long Island Sound; 1987, CG 
Commendation for Service as Staff Member, Office of Chief of Staff; 
1983, CG Commendation for Service as Deputy Group Commander, St. 
Petersburg, FL; 1980, Commendation for Service as Staff Member, Office 
of R&D; 1978, Commandant's Letter of Commendation for Service as Staff 
Member, Office of R&D.
    15. Published writings: ``Coast Guard at the Crossroads,'' Seapower 
Magazine August 2000.
    16. Speeches: Enlisted Person of the Year, CG Head Quarters, 23 
June 2000; Passenger Vessel Association, Savannah, GA, 06 February 
2001; Officer Candidate School Graduation Dinner, U.S. Coast Guard 
Academy, New London, CT, 15 Feb 2001; Launching of the Coast Guard 
Cutter Aspen, Marinette, Wisconsin, April 21, 2001; CG Innovation 
Exposition, U.S. Coast Guard Academy, New London, CT, 24 Apr 2001; 
Coast Guard Foundation Dinner, San Francisco, California, 03 May 2001; 
National Safe Boating Campaign Celebration Washington, DC 24 May 2001.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    2. Do you have any plans after completing government service for 
employment affiliation or practice with any business firm, association, 
or organization which is regulated or controlled in any manner by the 
Coast Guard? No.
    3. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    4. If confirmed, do you expect to serve your full term of office? 
Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate, any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. Please refer to the Deputy General Council Opinion Letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any federal, state, or other law enforcement authority for violation of 
any federal, state, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes, I will 
work within the scope of my authority to meet the requested deadline, 
notwithstanding delays caused by circumstances beyond my direct 
control.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes, I 
will work to that end by cooperating to identify appropriate witnesses.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you maybe 
reasonably requested to do so? Yes.

    Senator Kerry. Admiral, thank you so much. I appreciate 
your opening comments and certainly the focus of them I think 
is most appropriate.
    If I could just ask, on one level my attention was piqued 
by Senator Stevens, who mentioned Vigilant, and I wondered, 
where was Vigilant when you reported aboard?
    Admiral Collins. New Bedford, Massachusetts, sir.
    Senator Kerry. That is what I thought. That is why I knew. 
Bells went off and I said, ``I know the Vigilant.''
    Admiral Collins. It was my very first tour as a new ensign 
graduating from the Coast Guard Academy in 1968.
    Senator Kerry. How long did you spend aboard Vigilant?
    Admiral Collins. A year.
    Senator Kerry. I see we shared the same duty for a period 
of time. I was also a first lieutenant for a brief period of 
time, and we could tell sea stories, I am sure.
    Admiral Collins. Yes, sir. First lieutenant on the Vigilant 
and spent many chilly days going through Pollidip Channel in 
the middle of the winter.
    Senator Kerry. Well, we will not bore the rest of the 
Committee.
    Let me bring us back, if I can, to where we were pre-
September 11th. On September 10th, Senator Snowe and I, and 
other Members of the Committee were particularly concerned, and 
I know as Vice Commandant you heard us ask these questions to 
the Commandant, Admiral Loy. I want to begin there.
    Already on September 10th, the Coast Guard was hard-pressed 
to perform its duties. The deep-water fleet is one of the 
oldest in the world. The ability to interdict narcotics, which 
is increasing because there are so many more Americans with 
addictions, is important; also, the increasingly difficult task 
of enforcing the fisheries, which is critical in all sectors of 
our oceans because of the overfishing is also paramount. The 
more the regulations get tough and try to bring the stocks 
back, the more important that policing ingredient becomes.
    But by his own admission, Admiral Loy made it clear to us 
that the response to September 11th required a cannibalizing of 
each and every one of those activities. There was not one 
activity that did not require a redeployment, particularly for 
the long-term port piece, though some of that has been 
transferred.
    So the question for a lot of us is, if I look at the 
numbers here, I know the President has increased the budget, 
but a significant amount of this increase is related to non-
programmatic missions. In other words, not all of this large 
sum of money is going to go into any of the tasks that I just 
described. About $736 million is going to payment into the 
military retirement fund, which we all know is critical. That 
covers an unfunded liability for employee retirement benefits. 
I think $504 million of $1 billion sought for operating 
expenses is going to current retirement and other benefits and 
other pay increases and personnel entitlements, which total 
about $193 million.
    So that leaves only $303 million out of this entire 
increase to fund new initiatives and enhance the other 
missions.
    So the question really is, is this enough? Can you do this 
job? I know there is always a can-do attitude and I know you 
are going to have to say yes, but I would really like to 
examine this reality.
    Admiral Collins. Mr. Chairman, a great question.
    Clearly, in the wake of 9/11, we threw everything but the 
kitchen sink, including the kitchen sink, at the security issue 
in the immediate aftermath of 9/11. I do not think across the 
Nation we really knew what we had. I think that was the right 
approach.
    Since that time, we have been gradually pulling back those 
resources that were pulsed in to beef up that mission to create 
a greater state of normalcy relative to the other missions. 
Clearly, in the case of New England, for example, the first and 
second quarter of this year saw a rapid decline in the amount 
of ships devoted to fisheries enforcement off the Massachusetts 
coast and other areas experienced the same thing.
    Counter-drugs, fisheries enforcement, and offshore migrant 
interdiction were those areas where those high end resources 
were carved out. Based upon direction from Admiral Loy last 
fall, operational commanders were directed to start moving 
those resources back into those traditional missions that we 
peeled them off from.
    We expect, with the support of the 2003 budget, which we 
are very pleased with, Mr. Chairman, there is a 20 percent 
increase in our operating expense appropriation, the largest 
increase that we have seen in our recent history. There is an 
increase of 2200 people in this budget, another significant 
incremental increase. That compared with the 2002 supplemental 
that we received, which restored some of the cuts in the 2002 
budget--if you recall, there was a 15 percent operational 
reduction within the 2002 budget as it passed last summer. We 
could not even operate the assets we had to full capacity.
    So the supplemental restored that amount of money. It 
allowed us to pay the reserves that we called up and also 
provided for select new initiatives. We expect the second 
supplemental to come forward from the Administration shortly 
that will help to keep that momentum.
    So between that 2002 supplemental and 2003, we have seen 
some of the most significant incremental increases that we have 
seen in modern history. That is good news for our missions 
across the board.
    Senator Kerry. Where would most of that go, Admiral?
    Admiral Collins. About $430 million or so of the $730 
million incremental increase in the operating expenses is going 
into homeland security initiatives. That is the combination of 
annualizations of 2002 supplemental into 2003 plus new 
initiatives in 2003, for a total of about $430 million. But 
there is search and rescue investments that is in the 2003 
budget, for example, another 138 or so individuals being put 
into search and rescue stations, investments in small boats. 
Between 2002 and 2003, we will have 70 to 80 more small boats 
that will be introduced in our service because of the support 
of the 2002-2003 supplemental.
    So it is very significant investments in search and rescue. 
Also, if you include the National Distress Modernization 
System, there is a $90 million capital investment in the 2003 
budget for that. Over $500 million for the Deepwater Project.
    So we think there is real solid investments, sir, that will 
start a multi-year ramp-up for us to deal with both our 
traditional missions and the homeland security missions.
    Quite frankly, we would be hard-pressed to bring aboard 
more than 2200 people in 1 year, between 2002 and 2003. We are 
probably maxed out in terms of execution on bringing that many 
aboard. In order to realize a net gain of 2200 people in those 
2 years, we have to attract about 4800 new people into the 
Coast Guard, considering attrition and so forth. So that is a 
heavy lift for our infrastructure to make that happen.
    So all in all, I think we are going to do well with the 
2003 budget and the supplemental, and when we get to sort of a 
steady state as they play out, we will be within about 5 
percent of those other missions, probably 5 or 6 percent off on 
meeting the traditional programmed hours in those other 
missions.
    Senator Kerry. Share with me, if you will, your thoughts 
about the attrition and personnel issue. It is my understanding 
that retention has become a major problem at this point. Can 
you speak to that a little bit?
    Admiral Collins. Sure. Manpower issues and retention are an 
issue for all the armed services. Clearly, if you talk to the 
CNO in the Navy and you ask him what his job one is, he would 
probably tell you manpower. I think it is all the services' 
challenge to attract capable men and women and keep them in the 
service.
    We have seen in the last 6 months a turn-around a little 
bit in the retention, a positive turn-around up to 5 percent 
improvement, depending how you read the numbers. That is a 
positive thing. I think it is a combination of maybe the 
economy, No. 1; No. 2, the realization of the relevancy of our 
mission and what it contributes to the Nation. I think that is 
a very, very strong feature. I think people realize that we do 
have jobs that matter.
    Third, I think people recognize that we are an organization 
who care very much about our people. We have invested solidly 
in pay and compensation issues over the last 3 or 4 years. We 
are going to continue to do that and we are going to invest in 
training and education and professional development. We have 
increased our sea pay, for example, a tiered sea pay, a bonus 
system that will make going to sea attractive for our men and 
women.
    There are a lot of things that we have done, the medical 
benefits for example. I think those will all pay off. Talking 
to our Master Chief of the Coast Guard just the other day, he 
really felt that what is resonating with the men and women of 
the Coast Guard and the other armed services is that Congress, 
the Administration, the American people are paying attention to 
the needs of our armed forces by making pay and compensation a 
high priority.
    If you look at the medical benefits, if you look at the pay 
and the housing benefits that have come to pass over the last 
several years, they are making a difference. I would urge to 
keep the pressure on in that regard because I think it is 
resonating and it will turn some of these numbers around.
    As we grow up by 2200 people, it is important that we 
retain as many as we can.
    Senator Kerry. Do you sense that that is happening? I mean, 
I know you indicated a little bit of an upturn, but do you 
sense that we are doing enough or is there more you would like 
to see us do? I mean, if you had your druthers here and 
speaking on behalf of those folks now, do you think we should 
be approaching this differently?
    Admiral Collins. I think the professional development 
training is an area that we still can make some gains on and it 
is very relevant, professional development training is very 
relevant to the new generation of people coming in. We have 
just got to keep the pressure on there, keep improving our pay 
and compensation, the housing for example. Reducing the out-of-
pocket costs for housing, BAH, has been a major push and that 
is gradually going to get better and better for our men and 
women.
    The medical benefits, I think, have been right on. They are 
tremendous. I think those are all drawing cards, Mr. Chairman. 
I think we cannot just draw a conclusion on one data point of 3 
or 4 months, but I think over time we are going to see that the 
attention that Congress and the Administration has paid to pay 
and compensation for our men and women and their professional 
development will pay off in the high quality armed forces.
    Senator Kerry. I agree with that, except that I have heard 
from some people that, notwithstanding what they sense are some 
good opportunities in that regard and may be improving, the 
time, the deployment time itself, is sort of a cruncher, and 
even in some of the boat stations on the coastline, summertime 
deployment, etcetera, there is just an on versus off ratio that 
is really tugging at some people.
    Admiral Collins. Yes, sir. Some of our investments in the 
2002 budget and the 2003 budget in terms of increasing the 
personnel at search and rescue stations is all about reducing 
that work hours at station. You drive it down from 80 and 70 to 
below 60, that is our goal. With the support of Congress for 
the 2003 budget, we will be able to realize that.
    One other note. You know, we are creating these Maritime 
Safety and Security Teams, four of them through the 2003 
budget, teams of 70 active duty people plus additional 
reservists. They will be located at selected areas around the 
country to provide search operations for security, safety, 
aftermath of hurricanes, and the like.
    They will, in effect, be also an investment in our search 
and rescue stations because they ease the pressure on those 
search and rescue stations to provide those kind of skills. So 
it is another presence, a presence in our coastal waterways, 
that eases some of that OPTEMPO, PERSTEMPO pressure on our 
stations. We are excited about the prospects of those new 
units.
    Senator Kerry. Last year we appropriated, I think, about 
$290 million for the Deepwater Asset Refurbishment and I think 
this year there is a $500 million request. Balancing that 
against the post-9/11 demands, are we out of balance here? Are 
we thinking in terms pre-September that perhaps should be 
changed now because of the demands for port security, 
inspection, Customs, Immigration, all those components?
    Admiral Collins. That is a frequent question that we have 
heard, Mr. Chairman. Our answer is that we think the Deepwater 
Project is right smack dead on center in the type of capability 
we need for homeland security and for other missions. I would 
submit that counter-drugs is part of homeland security, 
protecting our borders is part of homeland security, pushing 
our borders out is part of homeland security and a wonderful 
strategy for us to pursue.
    That all depends on awareness of people, cargo, and 
platforms. The Deepwater Project is a C4ISR, a command and 
control, information-centric procurement, a system of systems. 
The central feature of that is giving us sensors, communication 
capability, and interoperability, the ability to interdict, 
detect, surveil, classify, prosecute cases at sea.
    It is just the type of capabilities that we need to embed 
for homeland security, including counter-drug ops and others. I 
think it is right dead on center. I think it is an absolute 
wonderful investment to make in homeland security. I think if 
you invest in Deepwater you invest in homeland security.
    Senator Kerry. What do you hope to be known for as 
Commandant if there is sort of one overriding thing, beyond 
being a great Commandant because you come from Massachusetts?
    Admiral Collins. Again, I think it is captioned in those 
three areas that I have emphasized.
    Senator Kerry. Would you say that focus is different from 
what Admiral Loy----
    Admiral Collins. I think it is a continuation and a natural 
extension of what he has set up. If you recall, his two broad 
themes are restoring readiness and shaping the future, with 
several sub-objectives. Mine are very much in keeping with 
that. I guess it is because I am part of his senior leadership 
team to help move that along.
    I think if our motto is ``Semper Paratus'' and we do not 
have readiness as part of our vision, there is something wrong. 
Readiness, taking care of our people and being good stewards of 
the American taxpayers' interest is what I would like to be 
known for. In keeping with that, I would like to be known that 
we have got the Deepwater Project off and running with a bang, 
that it is well situated, a strategic partnership established 
with the winning contractors, and that project is producing 
good things for us, as well as the National Distress and 
Modernization System Project that, as a previous group 
commander, I know how vital that capability is to the public in 
our coastal waters. We need to do that one right and we are 
going to do that one right, and we are going to address all 
those gaps that you are concerned with.
    That is going to be a wonderful system, giving us 98 
percent in the performance standard, 98 percent chance of 
connectivity in terms of communications. We are well, well, 
well below that. And oh, by the way, that is higher than what 
your average police and fire department and for public safety 
operations. That is where we are going with this. We think it 
is going to be a wonderful system.
    So I would like to be known to get those two projects off 
and running, taking care of our people, increasing our 
retention, and preserving our operational excellence and 
readiness, sir.
    Senator Kerry. Well, I wish you well with that, Admiral. It 
is an important agenda and I am confident you are up to it.
    Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman.
    Admiral Collins, just to follow up on the budget issue, are 
you comfortable with the billion dollar increase? Do you think 
it is sufficient to meet the needs of the Coast Guard?
    Admiral Collins. I think, Senator Snowe, along with the 
supplementals, the 2002 supplemental and the forthcoming 
supplemental, that we expect to be submitted shortly, it will 
give us that first year increment of a 3-year plan or so that 
we are developing to build out homeland security competence and 
capability while taking care of the rest of the mission. So I 
think it is on a time line and a scale that is just about 
right.
    Senator Snowe. Well, I know that the Coast Guard is 
devising a 3-year plan for this new normalcy. What are the 
specifics to the second and third year of this 3-year plan?
    Admiral Collins. It is an evolving plan, as everything is 
in the wake of 9/11 because it is a new world, new realities 
that we are building to. Some of the specifics are being worked 
through, discussed within the Administration. I think what you 
can expect to see ultimately in a 2004 or 2005 budget as it 
rolls up is some of the very same things that appear, just a 
continued buildout of those same things that appear in 2003.
    For example, Sea Marshalls, the Sea Marshall concept to 
ensure the positive control of vessels in our waterways, which 
is a major goal of our strategic plan. Another major goal is 
Maritime Domain Awareness, that concept where we have clarity 
and visibility in our area of responsibility of people, cargo, 
and platforms, so that we can take preventative action, not 
consequence management action. Consequence management action is 
when really all those upstream things have failed.
    But significant investments in communications, secure 
communications, intelligence, and so forth, that is part of 
that MDA, or Maritime Domain Awareness. You can expect to see 
more of that.
    Maritime safety and security teams. We do not want to stop 
at six. We feel that there is additional teams that we can 
justify as part of our plan. That gives us another part of our 
strategic goal, which is presence, increased presence in our 
ports for deterrence and response capability. So that is 
another continuation of our plan.
    Also, protection of critical infrastructure and force 
protection for our own men and women, things like weapons, 
ammunition, chemical, biological, and radiological detection, 
protection equipment. Those are the kind of things that you 
would expect to see, in addition to outreach and partnership, 
goal five of our strategic plan, with industry and with other 
government agencies, local agencies. This is an all-hands 
affair. That requires--as the Chairman mentioned, over 30 
ports, 95,000 miles of coastline. We could never be big enough 
to do that by ourselves.
    This requires the most important features--collaboration 
and outreach, and I would submit not only domestically, but 
internationally. One of the reasons why Admiral Jim Loy went 
over to IMO last fall and addressed the general assembly and 
got a unanimous resolution to aggressively pursue 
internationally enhanced security for shipping, because part of 
this an international threat and part of the solution has to be 
an international solution.
    Senator Snowe. Let's turn to the whole modernization 
program, such as Deepwater, as well as the National Distress 
and Response System. First of all, with Deepwater, do you think 
there should be any modifications to that program as a result 
of September 11th?
    Admiral Collins. Right now, of course, we are in the pre-
award phase, the source selection phase. The way the 
requirement is defined and the way the structure of the 
contract will be set up, if adjustments need to be made I think 
they will need to be made on the margin. They can be made in a 
post-award environment. That is the most prudent thing to do 
now.
    But I see there may be some adjustments, but adjustments on 
the margin, that the basic feature of Deepwater, which is a 
system of systems, which is information-centric, which is all 
about coordinating our aircraft and our surface assets so they 
work as a system and a network, is the very thing that homeland 
security calls for. So I think we are pretty much on target. 
There probably will be some marginal adjustments in the post-
award environment.
    Senator Snowe. As the Chairman mentioned about the National 
Response and Distress System, there are still existing gaps. We 
are going to be hearing testimony in subsequent panels about 
the Department of Transportation IG report which stated that 
there are still going to be gaps across this country. Have you 
given any thought to how we should address that? The original 
purpose of this initiative was to address and correct all the 
gaps in the system. Now we are modifying it because of the 
cost, but at the same time we are back to where we started in 
many ways.
    Admiral Collins. The approach, Senator, to the project is 
not to take the existing system and say these were the gaps and 
let us go plug them. What it is is taking a more blank sheet of 
paper and redrawing, reconfiguring the entire system with a 
brand new buildout that gives you digital capability, 
direction-finding capability, and so forth.
    It is going to be built out regionally, region by region. 
The first one will be the mid-Atlantic area. Atlantic City, 
Group Atlantic City, for example, will be one of the early 
initial operating capabilities. Each one of those areas, the 
industry will come in, the winning contractor will come in and 
do a detailed survey of that area, and then look at where he 
has to site towers and so forth to ensure he meets the 
performance requirement of the contract.
    The performance requirement of the contract calls for 98 
percent probability of communications. That is way more than 
the mid-1980s that we have now with the current system. So I 
think that we have to wait for surveys, region by region 
surveys that will say. The contractor is going to have to meet 
those minimum performance standards region by region by region 
as it is built out.
    The way it is being built out, there is one region built on 
and then the next adjacent region is built out, so we build off 
the tower structure of one region against the other region to 
the other region. So it is a very disciplined, I think well 
thought out approach. We do not want gaps in our system. We 
want 98 percent connectivity, and I think that is what we are 
going to get when this gets awarded.
    Senator Snowe. I certainly hope that you work with this 
Committee on that issue, because I think we have to make sure 
that we provide the kind of communications coverage that is 
essential. That initially was the primary goal for this 
program. I think we want to work with you to make sure that we 
stay on track with that program. We will be hearing later about 
the report. We hear perhaps we will follow up with you on this 
later.
    Go ahead.
    Admiral Collins. I would be glad to provide a brief to your 
staff, you or your staff, on the details of that as you desire, 
Senator.
    Senator Snowe. Thank you.
    Finally, on the issue of small boat station readiness. This 
is another area which I really do think we have to address in 
terms of the operations tempo. I know I have talked to my 
station in Eastport, and I know the demands that have been 
placed on them and the long hours. That is also true for most 
of these stations around the country.
    How do you propose to addressing this issue for the future? 
It is clearly a deficiency. It needs to be addressed and we 
have to rectify it, because it is a matter of safety and 
providing for the safety on our coastal waterways. I do know 
the OPTEMPO rates are obviously very high and so we need to 
take corrective action on that score for the future.
    Admiral Collins. Yes, Senator, clearly whatever shortfalls 
we had at the stations were exacerbated by 9/11 and the OPTEMPO 
that we push ourselves toward to meet the security needs of our 
ports and waterways. I think the 2002 and 2003 game plan and 
along with out years for search and rescue meets many of the 
previously discussed issues associated with our search and 
rescue stations, whether that be boat readiness or whether it 
be amount of people and so forth.
    The 2002 budget provided close to 200 people, additional 
people for our search and rescue stations. The 2003 budget 
provides 138 people additional to be distributed to our search 
and rescue stations. In addition, there is another increment 
of, I think, about 30 or so, if I have got the numbers right, 
for our groups, the command centers, our Coast Guard groups. So 
there is a fairly significant investment.
    In addition, I will state again, those maritime safety and 
security teams, those new units that we are creating six 
through the 2003 budget, that is 498 people going into those 
teams around the country. Those teams, what do they provide?
    Senator Kerry. Are they new people or are they coming out 
of the existing personnel pool?
    Admiral Collins. New people, Senator.
    Senator Kerry. Brand new people?
    Admiral Collins. Yes, sir. They are part of the 2200 person 
plus-up. 498 of those are maritime safety and security teams. 
They represent boatswain mates, MKs, and the like that are 
going to be operating boats in coastal areas. Those will 
significantly reduce the OPTEMPO pressures on those stations.
    So a combination of the plus-up in the SAR station plus the 
maritime safety and security team will move us a long way along 
solving some of those OPTEMPO, PERSTEMPO problems, Senator that 
you mentioned.
    Senator Snowe. Thank you, Admiral. We appreciate it and we 
know that you are going to provide remarkable leadership in the 
future, and it is certainly indicative of the kind of career 
that you already have amassed. So we appreciate it. Thank you.
    Admiral Collins. Thank you.
    Senator Kerry. Thank you, Senator Snowe.
    If I could just follow up on that for a moment. 
Notwithstanding the increases, the increases are going to an 
increased set of responsibilities; is that correct? In other 
words, the increases you have just talked about, the new 
personnel, the 2200, are being divided and 400-plus some are 
going directly into the special security. But others are going 
to be going into port security and these other security 
demands, correct?
    My problem is that all of these new demands have arisen 
post-Labor Day. This is in the off season in terms of station 
demand. What happens to you getting into May and proceeding 
forward in the next months on that station demand, plus the new 
responsibilities, when already prior to September 11th you did 
not have enough people to do everything we were asking you to 
do?
    Admiral Collins. 138 of the 2200, are brand new, going into 
SAR stations. An additional increment is going in to provide 
the fourth crew member for our new 47-foot MLB. So part of that 
2200 people are going into search and rescue stations. Of 
course, the bulk, as you pointed out----
    Senator Kerry. How many stations do we have nationally?
    Admiral Collins. Over 200, about 220 stations, Senator.
    Senator Kerry. So you are talking 138 people for 200 and 
some stations.
    Admiral Collins. Of course, they are not going to be 
distributed across the board, station by station.
    Senator Kerry. Right, station for station, I understand 
that.
    Admiral Collins. They will be put into those with the 
highest requirement. It is the second increment of the 
investment. There was the 200 additional search and rescue 
personnel last year as well.
    Senator Kerry. Well, obviously the Committee is very 
interested in this and concerned. We do not have to belabor it 
now, but I think you can tell that we are here for you. There 
is no political axe to grind here whatsoever. This Committee is 
completely bipartisan to making sure that the Coast Guard has 
the resources it needs. I think we have been, frankly, one of 
the loudest and most persistent voices on a bipartisan basis 
over the years for what we think has been an underfunding of 
your important agency.
    So we hope you are going to be frank with us as we go 
forward here, because these responsibilities are critical. 
Senator Snowe and I feel very deeply about the inadequacy of 
the monitoring of the fisheries. It is just inadequate, and we 
are going from 88 days maybe down to 22, depending on what 
happens here in New England in the groundfish fishery. The 
havoc that is going to create among our fisherpeople and the 
pressures it is going to create, frankly, for people that go 
look outside of those parameters. And if you have not got 
enforcement, we are all cooked.
    This is an ecosystem resource. This is not something that 
you can buy your way back into. If we do not have sufficient 
enforcement mechanism, we are not going to make those stock 
goals.
    Likewise on narcotics and these other issues. These are all 
equal kinds of competing factors. So it is really crunch time 
and I think 9/11 sort of woke people up to the extraordinary 
demands and the number of waterway, port security issues that 
we face.
    Maybe all of it does not have to fall on your agency and, 
needless to say, a lot of it will not as we sort of hone this, 
though it would be helpful for us to hear from the person in 
charge of it so we could begin to understand exactly how those 
demands are being divided, which is another issue, not for us 
here at this moment.
    So we are going to work with you and hope you will work 
with us as we try to figure out what is necessary. We have got 
$37 billion that is going into homeland security. Homeland 
security has a lot of definitions. I think homeland security is 
our narcotics effort and I think homeland security is also our 
protection of our ecosystem. But the nefarious networks that 
use the narcotics trafficking channels are the very same people 
what also provide illegal passports, illegal visas, money 
accounts that are hidden, who play to the proliferation issues, 
and so forth.
    So your ability to perform that function in my judgment is 
at the front line of any homeland security effort, and we need 
to make certain that that $37 billion is enough to do some of 
the other things we may choose to do. We have got to really 
think very hard about that.
    A couple of just quick pro forma questions, if I may. Is 
there any conflict that the Committee should be aware of that 
might in any way affect the performance of your 
responsibilities as Commandant?
    Admiral Collins. No, Mr. Chairman.
    Senator Kerry. Do you agree to appear before the Committee 
at such time as the Committee duly sends you appropriate 
request to do so in the course of your tenure?
    Admiral Collins. Yes, sir, with pleasure.
    Senator Kerry. And those people who serve with you, should 
that be necessary?
    Admiral Collins. Yes, sir.
    Senator Kerry. We thank you for that.
    Assuming we can move your nomination very rapidly, and we 
are going to try and do that--we will hold a Committee meeting 
off the floor of the Senate, hopefully, to be able to move it 
to the floor rapidly. Assuming we are able to confirm you this 
week, when would this change of command take place under those 
circumstances?
    Admiral Collins. It is scheduled for the 30th of May, Mr. 
Chairman.
    Senator Kerry. Fine.
    Admiral Collins. Yes, sir.
    Senator Kerry. Well, Admiral, we wish you all the best. We 
thank you very much for the job you have done as a prelude to 
this enormously important job you are about to do. We really do 
look forward to working with you. We hope you will feel the 
Committee is available to you to be as cooperative and as 
thoughtful as possible as we try to resolve these important 
issues for our country. We wish you well.
    Admiral Collins. Thank you very much, Mr. Chairman. It has 
been a pleasure to appear before you today and I do look 
forward to working very closely with the Committee.
    Senator Kerry. Well, good luck to you. Thank you.
    Admiral Collins. Thank you.
    [Whereupon, at 3:29 p.m., the hearing was adjourned.]


                            A P P E N D I X

               Prepared Statement of Senator John McCain

    I am pleased to offer my support on behalf of Vice Admiral Thomas 
H. Collins, who has been nominated by President Bush to be the 22nd 
Commandant of the United States Coast Guard.
    Admiral Collins is well qualified for the post of Commandant. He 
currently serves as the Vice Commandant of the Coast Guard, at the side 
of the Commandant, Admiral Loy. Admiral Collins is a highly decorated 
officer with a long and distinguished career in the Coast Guard. He has 
served in a variety of assignments throughout his exemplary career 
which include: Pacific Area Commander, 14th District Commander, command 
of a cutter, commander of a Group, and Captain of the Port.
    In the wake of the terrorist attacks of September 11th, the Coast 
Guard faces a critical point in its history. The challenge facing the 
Service is to take on this significant homeland security mission while 
at the same time providing the same level of service the American 
people have come to expect from the Coast Guard across a large spectrum 
of missions.
    Even before September 11th, the Coast Guard faced enormous 
challenges in overcoming chronic readiness issues ranging from an 
antiquated deepwater fleet, readiness problems in the search and rescue 
program, and retention problems with experienced personnel leaving the 
service. Readiness is clearly a concern to all of the military services 
and the Coast Guard should be funded at a level which allows the men 
and women who proudly serve this country to do so with the right 
resources. We need to ensure the Coast Guard has the resources to carry 
out its enhanced homeland security posture and conduct its traditional 
missions at their pre-September 11th level.
    The Coast Guard is the first line of defense in our war on drugs--
they are the lead maritime federal agency for drug interdiction 
efforts. 95 percent of the drugs smuggled into our country travel over 
the water, so the Coast Guard should be well equipped to stop these 
drugs from reaching our schools and streets.
    The Coast Guard also performs a wide range of duties--high profile 
search and rescue efforts, saving the lives of sailors in trouble, 
keeping our waterways safe for commercial trade and recreation, 
cleaning up oil spills and other environmental hazards, and enforcing 
important immigration and environmental laws.
    I strongly support Admiral Collins' nomination and believe we 
should quickly confirm him.
  

</pre></body></html>
